Report NO. SPO-2009-005              July 24, 2009




         Assessment of Electrical Safety
                In Afghanistan
General Information
Forward questions or comments concerning this assessment report and other activities
conducted by the Office of Special Plans & Operations to:

                       Office of the Assistant Inspector General
                            for Special Plans & Operations
                   Department of Defense Office of Inspector General
                                 400 Army Navy Drive
                               Arlington, VA 2202-4704
                                           or
                                E-mail: spo@dodig.mil

An overview of the Office of Special Plans & Operations mission and organization and a
list of past evaluations and future topics is available at http://www.dodig.mil/spo.

Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/spo/reports or contact the SPO Secondary
Reports Distribution Unit at (703) 604-8833 (DSN 664-8833) or fax (703) 604-9769.
                               INSPECTOR GENERAL 

                             DEPARTMENT OF DEFENSE 

                              400 ARMY NAVY DRIVE 

                         ARLINGTON, VIRGINIA 22202-4704 




                                                                          July 24, 2009

MEMORANDUM FOR U.S. CENTRAL COMMAND
              U.S. FORCES-AFGHANISTAN
              DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT: Assessment of Electrical Safety in Afghanistan
         (Report No. SPO-2009-005)


We are providing this report for your information and use. We performed the assessment
as a self initiated review. We considered management comments on our preliminary
observations and a draft of the report in preparing the final report.

Comments on the preliminary observations and the draft ofthis report conformed to the
requirements of DoD Directive 7650.3 and left no unresolved issues. Therefore we do
not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to Brett
Mansfield, Project Manager, at (703) 604-8302 (DSN 664-8302). If you desire, we will
provide a formal briefing on the results.



                                      ;;:J¥~W6--i-(   I? 111 ~*U2
                                          Kenneth P. Moorehe;d'
                                           Assistant Inspector General
                                           Special Plans & Operations
Report No. SPO-2009-005 (Project No. D2009-D00SPO-0192.000)                     July 24, 2009


               Results in Brief: Assessment of Electrical
               Safety in Afghanistan

What We Did                                          What We Recommended
We assessed the effectiveness of command                   USFOR-A take immediate action to
efforts to ensure the electrical safety of                  correct the electrical deficiencies at
Department of Defense occupied and                          Camp Brown and FOB Spin Boldak.
constructed facilities in Afghanistan. We                  USFOR-A dedicate a full-time cadre of
visited a series of sites throughout Afghanistan,           personnel to electrical safety, develop an
reviewed current efforts to assess electrical               inventory of U.S. controlled facilities,
safety, and performed electrical assessments.               and develop and execute a
                                                            comprehensive electrical inspection plan
What We Found                                               for U.S. occupied facilities in
U.S. Central Command (CENTCOM),                             Afghanistan.
U.S. Forces-Afghanistan (USFOR-A), and                     USFOR-A appoint an “Authority Having
Combined Joint Task Force (CJTF)-101, are all               Jurisdiction” to grant waivers to the
aware of the risks associated with the electrical           National Electrical Code.
infrastructure within Afghanistan and have                 USFOR-A include training on electrical
taken steps to address these issues. Despite                safety, incident reporting, and personal
these positive steps forward, additional                    responsibility as part of pre-deployment
coordinated efforts need to be undertaken to                and in-theater training.
ensure electrical safety. Specifically, we found:          USFOR-A and the Defense Contract
     Potentially dangerous situations that                 Management Agency (DCMA) identify
        required immediate attention at Camp                and train the individuals needed to meet
        Brown and Forward Operating Base                    the COR and oversight personnel
        (FOB) Spin Boldak.                                  requirements.
     The need for a full-time cadre of
        individuals dedicated to electrical safety   Management Comments
        throughout Afghanistan, a                    CENTCOM provided comments to our
        comprehensive inventory of U.S.              preliminary observations and recommendations
        controlled facilities in Afghanistan, and    and to a draft of this report, which included
        a comprehensive inspection plan.             planned and ongoing actions by USFOR-A, on
     A need for an organization with                May 11, 2009, and June 29, 2009. DCMA
        authority to grant waivers to the National   provided comments to a draft of this report on
        Electrical Code.                             July 9, 2009.
     A lack of education for service members
        regarding electrical safety, incident        Those comments have been incorporated into
        reporting, and personal responsibility.      this report. Management generally concurred
     A need for additional Contracting              with all of our observations and
        Officer’s Representatives (COR) and          recommendations. We consider management
        other oversight personnel to oversee         comments to be responsive to the
        electrical work being performed in           recommendations and no additional comments
        Afghanistan.                                 are required. Please see the recommendations
                                                     table on the back of this page.
Report No. SPO-2009-005 (Project No. D2009-D00SPO-0192.000)                    July 24, 2009

Recommendations Table
Management                      Recommendations               No Additional Comments
                                Requiring Comment             Required
U.S. Central Command                                          1, 2, 3, 4, 5, 6, 7, 8, 9, 10,
                                                              11, 12
U.S. Forces Afghanistan                                       1, 2, 3, 4, 5, 6, 7, 8, 9, 10,
                                                              11, 12
Defense Contract Management                                   11
Agency
Table of Contents

Results in Brief                                                                       i

Introduction                                                                           1

       Objectives                                                                      1
       Methodology                                                                     1
       Background                                                                      1
       Positive Actions Regarding Electrical Safety                                    2

Observations and Recommendations

       1. Electrical Issues at Camp Brown and FOB Spin Boldak                          5
       2. Comprehensive Inventory of U.S. Controlled Facilities in Afghanistan         8
       3. Comprehensive Electrical Inspection Plan for U.S. Controlled Facilities
           in Afghanistan                                                             10
       4. Resources to Inspect, Detect, and Correct Electrical Deficiencies           12
       5. Level of Recordable Electrical Accidents in Afghanistan                     14
       6. Full-Time Cadre Dedicated to Electrical Safety in U.S. Controlled
           Facilities in Afghanistan                                                  15
       7. Cap on Use of Operations and Maintenance Funds for Minor
           Construction in Afghanistan                                                16
       8. Authority Having Jurisdiction to Grant Waivers to the National Electrical
           Code in Afghanistan                                                        18
       9. Training Soldiers on Electrical Hazards and the Reporting Process           20
       10. Use of Unlisted Electrical Components                                      21
       11. Qualified Contracting Officer’s Representatives for Review of Electrical
           Work                                                                       22
       12. Re-wiring of New Ablution Units at Kandahar Air Field                      24
       13. Kandahar Air Field Power Plant                                             26

Appendices
     A. Scope and Methodology                                                         27
     B. Additional Photographs                                                        31
     C. Legislative Proposal Concerning Minor Military Construction Projects          37
     D. Management Comments to Preliminary Observations                               43
     E. Management Comments to Draft Report                                           49
     F. Report Distribution                                                           57
Introduction
Objectives
On March 31, 2009, we announced the Assessment of Electrical Safety in Afghanistan.
The objective of this assessment was to review the effectiveness of command efforts to
ensure the electrical safety of Department of Defense occupied and constructed facilities
in Afghanistan.

Methodology
We examined mainly qualitative data during this project. The qualitative data reviewed
consisted of individual interviews, direct observations, and documents.

On April 19, 2009, we began a one week assessment of the electrical safety of DoD
facilities occupied or constructed by U.S. personnel and contractors in Afghanistan. The
assessment team performed work at Bagram Airfield (BAF), Forward Operating Base
(FOB) Altimur, FOB Sharana, Kandahar Airfield (KAF), Camp Brown, FOB Tarin
Kowt, FOB Spin Boldak, Camp Phoenix, and Camp Eggers.

We used a subject matter expert (senior electrician from A Co., 249th Engineer Battalion
(Prime Power)) to assess the electrical safety and code compliance of facilities visited at
various locations. The team’s subject matter expert performed limited assessments of
electrical components at select facilities in Afghanistan. The subject matter expert did
not conduct full electrical inspections of each facility due to time constraints in country.

Subsequent to departing Afghanistan, the team provided U.S. Central Command
(CENTCOM) briefing charts with the team’s preliminary observations and
recommendations. We requested CENTCOM provide comments regarding our
observations and recommendations. The Command provided preliminary comments on
May 11, 2009. Those comments were incorporated into the draft and final reports. See
Appendix D for comments provided by CENTCOM to the preliminary observations and
recommendations. CENTCOM and the Defense Contract management Agency (DCMA)
provided comments to the draft report on June 29, 2009, and July 9, 2009, respectively.
See Appendix E for comments to the draft report provided by CENTCOM and DCMA.

Background
The Assessment of Electrical Safety in Afghanistan is a self-initiated review by the DoD
Office of Inspector General (OIG). The 101st Airborne Division, Regional Command
East (Combined Joint Task Force [CJTF]-101), Bagram, Afghanistan, stated that they
established Task Force Protecting Our Warfighters and Electrical Resources (TF
POWER) to evaluate and plan for safe power in Afghanistan.

TF POWER was established to “prevent the loss of life and government property through
immediate and long-term measures that will significantly reduce the number of electrical
and fire incidents throughout the combined/joint operations area.”


                                              1
These activities include:

            assessment of existing and new electrical resources and correction of
             deficiencies found
            inspection/re-inspection of electrical resources throughout the Area of
             Operations
            education on electrical and safety issues
            awareness-building and information dissemination through the Web and other
             media
            ensuring availability of National Electrical Code-compliant materials
            data collection, storage, and analysis

TF POWER used contractors to review and identify electrical deficiencies to include life,
health, and safety issues at FOBs. According to TF POWER representatives, as of
April 18, 2009, TF POWER tracked electrical inspections at 216 of 257 FOBs and
completed 100 percent inspections of 16 bases. Additionally, TF POWER utilized
standardized checklists for performing electrical reviews.

Positive Actions Regarding Electrical Safety
During our review, we noted awareness of the issues and positive actions taken by the
command in theater to increase electrical safety in Afghanistan. Those actions included
establishing a theater-wide electric code, ongoing construction and remediation, the
establishment of TF POWER, DCMA resource assessment, and local Inspector General
inspections.

Electrical Awareness
The Command produced a series of electrical safety bulletins, an inspection guide for
safety officers, established the National Electrical Code (NEC) 1 as the electrical code
within theater (by Fragmentary Order), and written guidance to restrict the sale of
unlisted power strips in the Combined/Joint Task Force Operational Area.

New Construction and Corrective Work
The assessment team’s subject matter expert reported that the electrical work for new
construction that we observed was NEC compliant. Because the work observed was not
complete, a full assessment was not possible. All plans and blueprints viewed, as well as
the workmanship, were in accordance with NEC 2008. Additionally, we noted a number
of instances where corrective actions had been taken to remediate previously dangerous
or non-compliant situations. The following is a series of photos representative of the new
construction and remediation we observed.


1
  The NEC is a set of standards published by the National Fire Protection Association (NFPA) for the safe
installation of electrical wiring and equipment. The NEC is approved by the American National Standards
Institute (ANSI) as ANSI NFPA 70. While the NEC is not itself a U.S. law, its use is commonly mandated
by state and local law.


                                                    2
Figure 1. Panel Box installed by a             Figure 2. Color coding of wires by a
Seabee in a B-hut, which was still under       contractor with tape to bring box into
construction at Kandahar Airfield.             NEC compliance at FOB Altimur.




Figure 3. Temporary fix performed by           Figure 4. Local contractor work
contractor to protect personnel from           performed on the newly constructed
coming into contact with exposed wires         Joint Operations Center at Camp
at Camp Eggers.                                Phoenix.




                                           3
DCMA Actions
DCMA performed a workload assessment to determine their current staffing needs.
Based on the results of that assessment, DCMA requested 45, and received approval for
an additional 43 personnel, at least 30 of which had already been identified by name at
the time of our site visit.

IG Command Inspections
CJTF-101 and 143rd Expeditionary Sustainment Command IGs incorporated an electrical
component into their normal base inspections. The main focus is on life, health, and
safety issues. Although the IGs are not trained electricians, they focus on apparent
deficiencies. Using this model, CJTF-101 IG identified and reported a number of issues.




                                           4
Observation 1. Electrical Issues at Camp
Brown and FOB Spin Boldak
We observed electrical issues at Camp Brown and FOB Spin Boldak involving
grounding, bonding, circuit protection, and personnel protection. The majority of the
wiring and panels were not properly grounded or bonded, if at all; distribution panel
doors were missing; electrical components were unprotected; and improper electrical
insulators were used.

The following pictures represent observations made at Camp Brown and FOB Spin
Boldak by the DoDIG assessment team, which was augmented by an electrical subject
matter expert. The captions represent opinions by that subject matter expert.
Appendix B shows additional photographs of electrical work in Afghanistan.




  Figure 5. Camp Brown: Unprotected                   Figure 6. Camp Brown: Electrical re-wiring,
  electrical component is an electrocution            to correct work performed by an untrained
  hazard.                                             worker, was performed by a Seabee to
                                                      prevent injury or property damage.




Figure 7. Camp Brown: The undersized wire                 Figure 8.     Spin Boldak: A lack of
will melt before the breaker trips causing a              grounding and proper bonding and
fire and blast hazard. Panel on the left has no           undersized wires create a shock hazard.
dead front causing a blast hazard.

                                                  5
  Figure 9. Spin Boldak: Exposed splices               Figure 10. Spin Boldak: Connecting wires
  directly below an exposed straw roof create a        are undersized making them a fusible link,
  fire hazard, and the splices are not weather-        and there is no wire protection around the
  protected.                                           knock-outs at the bottom of the panel.




Figure 11. Spin Boldak: Panel doors or dead            Figure 12. Spin Boldak: Taped splices
fronts missing from both panels, which increase        (unlisted connectors) are exposed to the
potential for direct contact by personnel to           weather and cause an increased risk of
energize circuits, which could result in arc blasts,   electrocution during wet weather.
shocks, and property damage.




  Figure 13. Spin Boldak: A sock used as an
  electrical insulator and an exposed splice is
  a fire hazard.


                                                       6
The observed conditions required immediate correction or would likely result in
significant safety issues. According to the assessment team’s subject matter expert, the
lack of (or improper) grounding or bonding causes a shock hazard to personnel. In the
absence of distribution panel doors or dead fronts for personnel protection, there was
potential for direct contact by personnel to energize circuits, which could result in arc
blasts and property damage. Further, unprotected electrical components may result in
electrocution hazards and the use of improper electrical insulators cause fire hazards.

Recommendation, Client Comments, and Our Response
1. We recommended that USFOR-A take immediate action to correct the electrical
deficiencies at both locations.

Client Comments to Observation and Recommendation
CENTCOM concurred. CENTCOM further stated that as of May 11, 2009, USFOR-A
corrected the Life Safety deficiencies. Additionally, CENTCOM stated that the
estimated completion dates for work related to major discrepancies at Camp Brown and
all electrical work at Spin Boldak was May 30, 2009. On June 29, 2009, CENTCOM
stated that all Life Safety issues were completed at Spin Boldak and the completion of
remaining electrical deficiencies at Spin Boldak was scheduled for September 16, 2009.

Our Response
CENTCOM comments were responsive. We request updates upon completion of the
work at Camp Brown and FOB Spin Boldak.




                                             7
Observation 2. Comprehensive Inventory of
U.S. Controlled Facilities in Afghanistan
We observed a lack of a comprehensive inventory of U.S. controlled facilities in
Afghanistan. Based on meetings with personnel from USFOR-A and CJTF-101, there
was no comprehensive inventory of U.S. controlled facilities in Afghanistan. At the time
of our visit, facilities with Operations & Maintenance (O&M) performed under the
Logistics Civil Augmentation Program (LOGCAP) contracts were tracked by contractors
on a density list, which detailed each facility by type and level of maintenance required.
Facilities not covered under LOGCAP were not included on the density lists, leaving
gaps in the Department’s ability to assess, plan, and track electrical repairs within
Afghanistan.

According to CJTF-101, at the time of our visit there were a total of 257 FOBs in
Afghanistan. CJTF-101 personnel provided summary information indicating at least
12,246 facilities under LOGCAP contracts in Afghanistan. Additionally, not all facilities
on a FOB covered by LOGCAP were contained in the contractor listing. If the contractor
was not assigned O&M responsibility on a facility, it would not be included in the listing
for that FOB.


    Table 1. Current Number of Facilities Under LOGCAP
        CONTRACT                Number of Bases                   Number of Facilities
    LOGCAP III                            82                           11,361
    LOGCAP IV                             12                            885
    Total                                                              12,246

The team’s electrical subject matter expert concluded that without a comprehensive
inventory of all U.S. controlled facilities, it is difficult to establish an inspection plan and
assess resource needs. Currently, the local commander has responsibility for repairs in
his/her area. A comprehensive inventory of facilities in Afghanistan could be used by
electrical inspectors and repair personnel to ensure that all U.S. controlled facilities are
safe. The contractor listing can be used as a starting point for developing a complete
accounting of U.S. controlled facilities in Afghanistan. However, using LOGCAP
listings alone would leave at least 163 FOBs without a facility listing.

Recommendation, Client Comments, and Our Response
2. We recommended that USFOR-A identify and record all facilities controlled by
U.S. forces in Afghanistan.

Client Comments to Observation and Recommendation
CENTCOM concurred with exceptions. CENTCOM stated that they tasked USFOR-A
and Army Central Command to use their combined efforts to create a comprehensive
database, identifying all U.S. controlled facilities in Afghanistan. CENTCOM further


                                               8
stated that USFOR-A Engineering would develop a single composite database compiled
from all available databases in Afghanistan to meet the needs of all USFOR-A staff
departments. On June 29, 2009, CENTCOM stated that all existing facility data was
being consolidated into an accessible database located on the USFOR-A website.

Our Response
CENTCOM comments were responsive. However, we urge CENTCOM and USFOR-A
to ensure that the databases being used to compile the comprehensive list are complete
and accurate. Verification and existence/completeness testing of database records should
be completed. The database needs to be kept current as new facilities are built and old
facilities destroyed or removed.




                                           9
Observation 3. Comprehensive Electrical
Inspection Plan for U.S. Controlled Facilities
in Afghanistan
We observed the lack of a comprehensive electrical inspection plan for U.S. controlled
facilities in Afghanistan. The Commanders in Afghanistan were aware of the potential
electrical issues and worked to address life, health, and safety issues. During our visit,
there were a number of initiatives underway indicating that Commanders in Afghanistan
were aware of the risks and taking steps to improve the electrical safety of facilities under
their control.

For example, TF POWER was established by CJTF-101 in October of 2008, to “prevent
the loss of life and government property through immediate and long-term measures that
will significantly reduce the number of electrical and fire incidents throughout the
combined/joint operations area.” TF POWER used contractors to review and identify
electrical deficiencies to include life, health, and safety issues at FOBs. According to TF
POWER representatives, as of April 18, 2009, it tracked electrical inspections at 216
FOBs and completed 100% inspections of 16 bases. However, as noted earlier, without a
full listing of facilities, it is difficult to determine or track whether all facilities at those 16
bases were inspected. During the time of our visit, TF POWER did not track all 257
FOBs in Afghanistan, leaving 41 FOBs at risk of not being fully reviewed for electrical
safety. The number of 257 FOBs is expected to increase dramatically as the number of
troops in Afghanistan increases.

In addition to the TF POWER electrical reviews, the CJTF-101 IG and Expeditionary
Sustainment Command-Afghanistan IG expanded their base inspections to include
electrical reviews. During one of our meetings, the CJTF-101 IG provided a presentation
containing pictures of some of the electrical deficiencies that were identified and reported
to the Command. Corrective actions were being tracked by the CJTF-101 IG. According
to staff at FOB Sharana, there was also an annual winterization process which touches all
FOBs in Afghanistan and includes some component of an electrical evaluation.
However, identification and correction of electrical issues was not the primary purpose of
either of these processes.

While all of the aforementioned initiatives are noteworthy initial actions; more still needs
to be accomplished. A single plan for the inspection of all U.S. controlled facilities is
needed. The comprehensive inventory discussed in observation 2 is an integral part of
establishing an inspection plan and the two should be implemented in unison. Once a
comprehensive inventory is completed, it follows that a detailed, organized plan can be
established for all repairs based on the order of merit of the facilities and safety
considerations of U.S. Forces.




                                                10
Recommendation, Client Comments, and Our Response
3. We recommended USFOR-A develop a comprehensive plan to inspect, detect,
and correct electrical deficiencies in facilities controlled by U.S. forces in
Afghanistan.

Client Comments to Observation and Recommendation
CENTCOM concurred with exceptions. CENTCOM stated that a comprehensive plan
was under development by TF POWER for a third party assessment and evaluation to
inspect all electrical generation and distribution systems, then initiate proper corrective
action for deficiencies at all USFOR-A occupied facilities in Afghanistan. The plan was
to be completed by May 30, 2009. Additionally, USFOR-A was drafting a Standard
Operating Procedure (SOP), which would address inspection, detection, and correction of
electrical deficiencies in facilities controlled by U.S. forces. CENTCOM estimated
completion of the SOP by June 15, 2009. On June 29, 2009, CENTCOM stated
USFOR-A was finalizing their comprehensive plan. When finished, the plan will consist
of three phases, (1) initial facility inspection and creation of an initial inspection report
(currently underway), (2) analysis of the initial inspection report to determine the proper
corrections, materials, and funding requirements, and (3) continued inspection of all
maintenance work and new construction.


Our Response
CENTCOM comments were responsive. We request copies of the plan and SOP when
completed.




                                             11
Observation 4. Resources to Inspect, Detect,
and Correct Electrical Deficiencies
We observed an apparent shortage in resources to properly inspect, detect, and correct
electrical deficiencies. The shortages included qualified engineers, inspectors,
electricians, and funds. The shortage also included qualified and available electricians to
conduct the electrical work and qualified Contracting Officer’s Representatives (CORs)
to review contracted electrical work and administer the contracts.

At Bagram Air Field we were informed that the FOBs rely largely on Department of
Defense personnel and local contractors for electrical support. Some were using civilian-
run generators and most used spot generation as there were no grids. As RC-South
expands, the Department will need engineering support and structure to be able to sustain
the growth.

According to DCMA-Afghanistan staff, DCMA identified a shortage of qualified CORs
to review contracted electrical work. DCMA concluded that they had 185 CORs; their
review indicated a need for 512 CORs. DCMA estimated that they were understaffed by
327 CORs. DCMA is the quality assurance representative and the property administrator
for LOGCAP contracts. This issue is discussed in greater detail in observation 11.

At Camp Brown at Kandahar Airfield we observed Seabees performing electrical work to
correct noncompliance issues. At the time of our visit, there were five Seabees and one
master electrician conducting the electrical work at Camp Brown. One believed that four
or five senior electricians were needed to efficiently perform the electrical work on the
camp.

The U.S. Army Corp of Engineers-Afghanistan Engineer District (USACE-AED)
commander informed us during our visit that he was tasked with an increasingly
significant construction workload involving Afghanistan reconstruction and support to a
plus-up of U.S./Coalition forces. The USACE-AED commander indicated he did not
have the personnel to assist in additional quality oversight of non-USACE projects.

The lack of proper personnel to inspect, detect, and correct electrical deficiencies
increased the risk of undetected electrical defects, non-compliant construction and repairs
being performed, and the acceptance of non-compliant electrical work performed by
contractors. This increased the risk of injury, fires, and property damage.

Recommendation, Client Comments, and Our Response
4. We recommended that USFOR-A complete a comprehensive electrical inspection
to determine requirements. Using those results, acquire the necessary financial and
personnel resources to maintain continuous electrical inspections and corrective
action program.




                                            12
Client Comments to Observation and Recommendation
CENTCOM concurred. CENTCOM further stated that USFOR-A was developing a
comprehensive inspection program to verify the condition of the existing electrical
generation and distribution systems at all U.S. occupied facilities in Afghanistan.
USFOR-A plans to use the results of that inspection program as the basis for determining
the adequacy of LOGCAP and other contractor staffing plans. On June 29, 2009,
CENTCOM stated that Task Force POWER continues their comprehensive inspection of
existing facilities. The initial inspection team includes an organization of 116 personnel
(including eight engineers, three master electricians, 72 subject matter experts/electrical
inspectors, and 33 support personnel). After the initial inspection is complete, these
personnel will transform into the continued inspection staff of 42 personnel. Once initial
inspections are completed and results analyzed, requirements for funding, materials, and
manpower will be requested.


Our Response
CENTCOM comments were responsive.




                                            13
Observation 5. Level of Recordable
Electrical Accidents in Afghanistan
DoD accidents are classified based on the severity of the injury, occupational illness, or
property damage. A Class C accident is the lowest classification reported, and does not
cover electrical shocks that do not result in a non-fatal injury or non-fatal occupational
illness. Currently, a Class C accident is one that causes a non-fatal injury and causes any
loss of time from work beyond the day or shift it occurred; a non-fatal occupational
illness that causes loss of time from work; disability at any time; and/or property damage
totaling at least $20K but less than $200K.

As such, many incidents of electrical shock were not required to be reported. Based on
fieldwork conducted, we determined that personnel have experienced electrical shocks in
facilities, such as the showers, which under the current policy, were not required to be
reported.

According to the assessment team’s electrical subject matter expert, electrical shocks
traumatize the body and should be treated as near electrocutions. By maintaining a
system for reporting for all electrical shocks, the Command would be better equipped to
respond to electrical hazards.

Recommendation, Client Comments, and Our Response
5. We recommended that USFOR-A establish a mechanism for all electrical shocks
to be reported through appropriate channels.

Client Comments to Observation and Recommendation
CENTCOM concurred. Specifically, CENTCOM reported that USFOR-A was working
with all organizations, civilian and military, to collect all reports of electrical shock. A
24x7x365 telephone hotline is under development, as well as a webpage for identification
of electrical problems/concerns to TF POWER. Prior to establishment of the hotline and
completion of the webpage, all units have been instructed to report all electrical incidents
through the chain of command for tracking and confirmation of proper resolution. On
June 29, 2009, CENTCOM stated that electrical shocks were being reported through the
chain of command. USFOR-A provided direction to immediately de-energize any
facility where an electrical shock occurred.

Our Response
CENTCOM comments were responsive.




                                            14
Observation 6. Full-Time Cadre Dedicated to
Electrical Safety in U.S. Controlled Facilities
in Afghanistan
During our visit, there was no full-time cadre dedicated to electrical safety of U.S.
controlled facilities in Afghanistan. As discussed in observation 3, the formation of TF
POWER is a great step towards ensuring electrical safety in Afghanistan. In response to
electrocutions in Iraq, Task Force Safe Actions for Fire and Electricity (TF SAFE) was
established by Multi-National Force-Iraq.

In its current form under CJTF 101, TF POWER does not have authority to oversee all
facilities in Afghanistan. According to Command staff, TF POWER does not have a
dedicated cadre of personnel to oversee the work performed by contractors. Specifically,
during our visit, TF POWER was staffed by CJ-7 engineers (part time), electricians (part-
time), and Prime Power (part-time). The TF POWER concept needs to be elevated to the
USFOR-A level to ensure appropriate authority to oversee all facilities in Afghanistan.

According to the assessment team’s electrical subject matter expert, a systematic
approach, similar to that provided by TF SAFE in Iraq, is necessary to ensure that all
U.S. controlled facilities in Afghanistan are electrically sound. An overarching authority
is needed to direct the inspection and detection process and begin comprehensive repairs
country-wide.

Recommendation, Client Comments, and Our Response
6. We recommended that USFOR-A establish, through the Joint Manning
Document (JMD) process, a full-time cadre that is dedicated to electrical safety in
Afghanistan.

Client Comments to Observation and Recommendation
CENTCOM concurred. CENTCOM stated that a JMD would be submitted by May 15,
2009. The JMD would include Management Oversight and appropriate
technical/electrical/power experts, and would be modeled after successful programs in
Iraq and Kuwait. On June 29, 2009, in response to the draft report, CENTCOM stated
that USFOR-A Task Force Power had defined a JMD of 10 personnel to be added to the
USFOR-A staff for electrical code enforcement and management. The submission of the
JMD was delayed until completion of the 60-day assessment of the Afghanistan area of
responsibility by the newly appointed USFOR-A Commander.

Our Response
CENTCOM comments were responsive. We request that CENTCOM provide us with a
copy of the JMD once submitted and approved.




                                            15
Observation 7. Cap on Use of Operations
and Maintenance Funds for Minor
Construction in Afghanistan
Multiple parties expressed that the $750,000 cap on funds for minor construction resulted
in inefficient use of funds resulting in piece-mealing (splitting a construction project for
power grids 2 into multiple phases) or down-scoping projects (by removing items from the
statement of work).

During a meeting with key leaders in CJTF-101, they indicated that the $750,000 cap on
operations and maintenance construction was not adequate for building in the high
operations tempo in Afghanistan. For example, the cap dollar amount restricted efforts to
create an entire power grid, which led to the construction of a series of mini-grids. The
use of mini-grids can lead to higher fuel usage, additional maintenance and grounding
issues resulting from “spot” generation using tactical generators.

USACE-AED personnel also stated that they support increasing the military construction
cap. As a result of cap restrictions, USACE-AED indicated that they are often forced to
down-scope construction activities. For example, they noted a re-locatable building
project that was down-scoped by removing the fire suppression systems. CENTCOM
pointed out that in FY04, the cost to construct a dining facility was $500K. Today, they
indicated that it costs $2.2 million to construct a similar facility and requires
congressional notification.

CENTCOM initiated a legislative proposal to have the $750,000 cap increased to
$3 million for “Unspecified Minor Construction Projects.” In a letter to the Office of
Legislative Counsel, dated May 7, 2009, the CENTCOM commander noted that without
authorization to increase the cap, “our ability to perform mission-essential military
construction to support the increase of forces is at risk.” He further stated in the letter
that increasing the cap “will provide the resources needed to support the President’s troop
increase and will enhance our ability to rapidly provide essential military construction
projects that will help protect, feed, care, maintain, and sustain our forces.” Subsequent
to us providing the Command with our preliminary observations and recommendations,
the legislative proposal was submitted to Congress on May 13, 2009, as Section 1301 of
the National Defense Authorization Bill for FY 2010. (See Appendix C for a copy of
proposed section 1301, “Temporary Increase in Cost Threshold for Use of Operation and
Maintenance Funds for Unspecified Minor Military Construction Projects in
Afghanistan.”)

CENTCOM provided the DoD IG a list of 21 projects that could be quickly supported if
the military construction cap was raised to $3M. This list of projects included medical
facilities, contingency housing, dining facilities, and electrical grids. Given the nature of

2
    An electrical grid is an interconnected network for delivering electricity from suppliers to consumers.


                                                       16
such facilities and the operational impact on U.S. forces in Afghanistan, the current
legislative proposal submitted by CENTCOM should merit serious consideration.

Recommendation, Client Comments, and Our Response
7. We recommended that CENTCOM, in coordination with USFOR-A, submit a
legislative proposal to increase $750,000 cap on minor construction for contingency
operations in Southwest Asia.

Client Comments to Observation and Recommendation
On June 29, 2009, CENTCOM stated that Congress did not support the proposal to
increase the threshold. Instead, the congressional staff recommended that DoD
streamline the Contingency Construction Authorities and existing Unspecified Minor
Military Construction request process to expedite construction execution.

Our Response
Although the legislative proposal was submitted on May 13, 2009, the proposed
legislation was not addressed by congress as of the date of the draft report. Therefore,
our recommendation remained in the draft report and CENTCOM responded to the
recommendation. CENTCOM comments and actions were responsive.




                                            17
Observation 8. Authority Having Jurisdiction
to Grant Waivers to the National Electrical
Code in Afghanistan
During meetings with staff from USFOR-A and CJTF-101, we determined that there was
no arbitration cell (Authority Having Jurisdiction [AHJ]) within Afghanistan with the
ability to grant waivers to the NEC. Additionally, work within Afghanistan was
performed to multiple standards, to include NEC, British, and local.

The NEC was established as the electrical code for the CENTCOM area of operations by
Fragmentary Order in October of 2008. According to the assessment team’s subject
matter expert, applying the NEC 2008 to all of Afghanistan creates difficulties. The NEC
works well only if interpreted by qualified personnel. CORs did not always have the
necessary qualifications to interpret the electrical codes for the work they were
overseeing. The NEC, and any other electrical code, is written for technical experts in
the electrical field.

According to the NEC, the AHJ is responsible for approving equipment, materials,
installation, or procedures. Specifically, the AHJ is responsible for electrical inspections;
investigation of electrical fires; and the design, alteration, modification, construction,
maintenance, and testing of electrical systems and equipment. Additionally, the AHJ is
also permitted to:

          order the immediate evacuation of any occupied building deemed unsafe when
           such building has hazardous conditions that present imminent danger to building
           occupants, and

          waive specific requirements of the NEC or permit alternative methods where it is
           assured that equivalent objectives can be achieved by establishing and
           maintaining effective safety. Technical documentation shall be submitted to the
           AHJ to demonstrate equivalency and that the system, method, or device is
           approved for the intended purpose. 3

Although not required by the NEC 2008, the Department of Defense has a history of
utilizing an AHJ in forward operating environments, which is evidenced by inclusion of
an AHJ in the base LOGCAP contract and the use of an AHJ in direct support of TF
SAFE in Iraq. By not having an established AHJ in Afghanistan, the Department of
Defense does not have assurance that decisions being made regarding the electrical safety
of facilities and installation procedures are being made in a consistent, professional
manner by Department of Defense officials.



3
    National Fire Protection Association (2007). National Electrical Code -2008 Edition (NFPA 70).



                                                     18
Recommendation, Client Comments, and Our Response
8. We recommended USFOR-A establish an AHJ with the authority to review
requests and grant code deviations, as necessary. The AHJ should be established at
USFOR-A and in accordance with guidance in NEC 2008, Annex H.

Client Comments to Observation and Recommendation
CENTCOM concurred. The TF POWER officer in charge will be designated by
USFOR-A as the AHJ in Afghanistan (Local AHJ). Issues will be submitted to the
officer in charge for adjudication and policy enforcement. Additionally, requested
waivers or deviations from the NEC will be submitted to the Tri Services Electrical
Working Group for review and consideration. On June 29, 2009, CENTCOM stated that
an AHJ had been established and is responsible for all electrical issue adjudication, policy
development, and code enforcement.

Our Response
CENTCOM comments were responsive.




                                            19
Observation 9. Training Soldiers on
Electrical Hazards and the Reporting
Process
A comprehensive program did not exist to educate and increase awareness of electrical
safety for soldiers prior to arriving in theater. Further, there was a lack of in-theater
training for individual soldiers on awareness of electrical hazards, the reporting process,
and consequences for tampering with electrical circuits. According to the safety officers,
many soldiers made electrical repairs on their own, and they were not trained electricians
qualified to work on electrical systems.

Training is essential to ensure that soldiers know how to avoid electrical hazards, such as
shocks, are informed on reporting procedures, and aware of the consequences of
tampering with electrical systems or components.

Without such training, soldiers may be at risk of electrical shocks or injury to themselves
or others and may also risk potential property damage. Further, incidents of electrical
shock that are not reported may not be properly addressed and may result in injury to
additional soldiers.


Recommendation, Client Comments, and Our Response
9. We recommended that USFOR-A include training on electrical safety and
incident reporting as part of pre-deployment and in-theater training. Training
should also emphasize consequences for tampering with electrical circuits.

Client Comments to Observation and Recommendation
CENTCOM concurred. USFOR-A is developing an electrical safety training program to
include PowerPoint slides that will be briefed to personnel during Reception, Staging,
Onward-movement, and Integration. A standard operating procedure is under
development, which will emphasize the importance of electrical safety within the
workplace and living spaces, reinforcing the role of the senior non-commissioned officers
in troop leadership. Units will have a safety organization that includes fire and electrical
inspections to reinforce awareness of electrical safety and hazards. On June 29, 2009,
CENTCOM stated that TF POWER has developed training slides to be added to the
Theater RSO&I briefing program. Further, training of individual unit Training Officers
will be implemented upon arrival of the USFOR-A Safety Officer and Staff after
submission to fill the JMD.

Our Response
CENTCOM comments were responsive. We request that USFOR-A provide us with the
training program and standard operating procedures upon completion.




                                            20
Observation 10. Use of Unlisted Electrical
Components
CJTF-101 identified the use of unlisted power strips and transformers 4 by soldiers. They
stated that the unlisted power strips and transformers were purchased in the post
exchanges and from other vendors. CJTF-101 has since issued standards on electrical
components sold on CJTF-101 installations. However, although many of them had been
confiscated during inspections, not all had been collected and may have still been in use
by soldiers and civilians. Further, some of the power strips and transformers that were
confiscated were not replaced with those that were certified and authorized for use
because of the unavailability of listed replacements.

According to the assessment team’s subject matter expert, unlisted power strips did not
have circuit breakers built in, which allows for the free flow of current beyond the
nominal rating of the power strip. This may cause electrical shock and fires.

Criteria
Memorandum, “Standards for Electrical Components Sold on CJTF-101 Installations,”
April 6, 2009, establishes standards for electrical power strips sold by vendors authorized
to conduct business on military installations within CJTF-101. It prohibits the sale of
power strips by vendors other than the Army Air Force Exchange System Post Exchange.
This policy ensures that soldiers and civilians supporting Operation Enduring Freedom
are protected from electrical hazards in their living areas and workplaces.


Recommendation, Client Comments, and Our Response
10. We recommended that USFOR-A establish a program to provide listed
replacement power strips and transformers.

Client Comments to Observation and Recommendation
CENTCOM concurred. CENTCOM further stated that TF POWER will coordinate the
ordering of approved power strips and transformers for the unit and command safety
officers to exchange and replace the unlisted units.

Our Response
CENTCOM comments were responsive.




4
 Listed power strips and transformers are those that have been certified by the Underwriters Laboratory
(UL), Canadian Standards Association (CSA), or Conformance European (CE).


                                                   21
Observation 11. Qualified Contracting
Officer’s Representatives for Review of
Electrical Work
A lack of theater personnel qualified to perform as CORs was identified by the DCMA as
a challenge throughout Afghanistan. Additionally, good business practices require the
separation of duties in contract execution; the lack of qualified CORs places the
separation of duties principle at risk. Because of the technical requirements needed to
oversee electrical contracts, the problem was particularly acute.

According to DCMA, they had recently performed a requirements review for CORs in
Afghanistan. At the time of their review, they had 185 CORs and the review indicated a
need for a total of 512 CORs. Therefore, they indicated they were understaffed by 327
CORs total, 37 short in the fields of power generation and electrical distribution. They
also stated that the number of COR audits received was less than one per COR per
month; the requirement for most CORs was four reports per month. Electrical issues
were considered high risk for DCMA quality assurance reviews.

DCMA indicated that they were attempting to garner additional resources to solve the
COR shortage. They were working with USFOR-A CJ7 for theater engineer resources to
serve as CORs and were coordinating with the 249th Engineer Battalion to leverage
theater electrical subject matter experts to serve as CORs. Additionally, they indicated
that they were working with CJTF-101 to complete an official “gap analysis” to best
determine the exact number of necessary personnel.

DCMA also stated that they had limited technical subject matter experts to provide
Government oversight for LOGCAP high risk services, primarily in facilities
management, construction, engineering services, power distribution, and power
generation.

During a meeting with the 249th Engineer Battalion, personnel noted that TF SAFE had
identified 385 soldiers in Iraq with electrical military occupational specialties. They
explained that these individuals were not typically assigned jobs related to monitoring or
maintaining low voltage systems. The same may hold true for Afghanistan; if so, these
types of soldiers could be used as CORs.

A strong cadre of CORs would mitigate risk of unchecked contractor performed services
throughout Afghanistan. A plus-up of CORs would allow senior leadership at TF
POWER to replace existing contractor personnel performing inspections on contractor
work and alleviate a concern regarding separation of duties.

Recommendation, Client Comments, and Our Response
11. We recommended that USFOR-A, in coordination with DCMA, identify and
train the individuals needed to satisfy COR requirements.


                                            22
Client Comments to Observation and Recommendation

U.S. Central Command Comments
CENTCOM concurred with exceptions. CENTCM stated that DCMA had an aggressive
COR expansion plan to increase in theater electrical system CORs from 16 to 53.
Additionally, CENTCOM stated that USFOR-A TF POWER, in coordination with
DCMA will create an organizational chart which clearly explains the relationships
between the COR and the worker installing the work. On June 29, 2009, CENTCOM
stated that the anticipated arrival date in theater of USACE architecture and engineering
subject matter experts was September 16, 2009. Further, the A&E subject matter experts
were to be trained as Contracting Officer’s Technical Representatives to collect
inspection reports and develop the proper documentation for the responsible COR.

Defense Contract Management Agency Comments
On July 9, 2009, DCMA concurred with our finding and recommendation. DCMA also
provided additional information regarding the COR training process which included both
formal and on-the-job training.

Our Response
CENTCOM and DCMA comments were responsive. We request CENTCOM provide us
with a copy of the organizational chart once completed.




                                           23
Observation 12. Re-wiring of New Ablution
Units at Kandahar Air Field
We observed that new ablution units at Kandahar Airfield were being re-wired to meet
NEC 2008. The assessment team’s subject matter expert concluded that there may be a
timelier and more cost effective alternative to meet NEC other than a complete re-wiring.
In the opinion of the subject matter expert, replacing the electrical panel in lieu of
complete rewiring may be a solution that could bring the Ablution units into compliance
with NEC 2008.

Ablution units are re-locatable buildings which were being used by U.S. and North
Atlantic Treaty Organization (NATO) forces. A typical ablution unit contained five sinks
and five showers. These units were purchased prefabricated (wiring and plumbing are
complete upon delivery). Because these were new buildings intended for occupancy by
U.S. forces, they should be NEC 2008 compliant.

During our walk through of Kandahar Airfield, we met with a representative from the
NATO Maintenance and Supply Agency who informed us that the units pictured below
were being rewired because they were not NEC 2008 compliant. He also stated that these
units were part of an order of 150 brand new buildings that would cost the Department of
Defense over $600,000 to rewire.




Figure 14. Outside view of a                    Figure 15. Inside view of a typical
typical ablution unit                           ablution unit


According to the assessment team’s electrical subject matter expert, these units were
wired using Residual Current Device, the European equivalent of ground fault current



                                           24
interrupters (GFCI). Due to a lack of understanding of NEC requirements and how codes
work together, the COR instructed the contractor to rewire all ablution units “to meet the
code.” A qualified electrician should be made available to inspect the units and
determine if a less costly modification can be made to meet the specifications of the NEC
2008.

There was no AHJ to make code determinations, as such, the COR was left to make a
technical decision regarding electrical safety and sufficiency. This could result in a more
expensive fix than is necessary to meet the intent of the NEC 2008.

Recommendation, Client Comments, and Our Response
12. We recommended that USFOR-A determine if replacing the electrical panel, in
lieu of complete re-wiring, will bring the ablution units in compliance with NEC
2008.

Client Comments to Observation and Recommendation
CENTCOM concurred. Specifically, CENTCOM stated that there were two issues being
corrected at Kandahar Air Field. First, the initial deliveries of ablution units from
Corimec were wired using plastic electrical panels and non-GFCI receptacles over the
sinks. This required the upgrade of the electrical panel and receptacles in 36 Corimec
units. Corimec was made aware of the NEC requirement and all remaining units were to
be corrected at the factory. Second, 32 units were received from a local supplier. The
electrical wiring in these locally supplied ablution units were below acceptable standards,
and all require a complete electrical wiring replacement. The local supplier was no
longer being used. On June 29, 2009, CENTCOM stated that the changes to existing
containers were necessary, the contractor was being responsive in correcting this issue
during manufacturing, and that correction of the discrepancies continued.

Our Response
CENTCOM comments were responsive. We request CENTCOM provide us with an
update on status of the corrective actions underway.




                                            25
Observation 13. Kandahar Air Field Power
Plant
According to the site manager, a contractor with IAP Worldwide Services, the power
plant at Kandahar Air Field was at maximum capacity (22 MW) and usage was expected
to expand by 75 percent by next year. Problems included:

      Last year, peak demand was 20 MW and was expected to increase by 15 MW by
       next year.
      At the time of our visit, the power plant location would allow for only an
       additional generation of 12 MW.
      Power shortages may require spot generation.

                                              According to the contractor, a plan was
                                              in place to open an additional power
                                              plant at an additional location.
                                              Further, the site manager informed the
                                              team that this was a NATO-managed
                                              power plant. The USFOR-A personnel
                                              had no input or control over this plant,
                                              the operation, maintenance or required
                                              upgrades to the plant.

                                              We are highlighting this issue for
                                              context issues regarding electrical
                                              capacity in Afghanistan.
 Figure 16. Kandahar Power Plant

Client Comments, and Our Response
Client Comments to Observation
CENTCOM concurred with the observation.

Our Response
CENTCOM comments were responsive.




                                        26
Appendix A. Scope and Methodology
We conducted this assessment from March 31, 2009, through May 29, 2009, in
accordance with Quality Standards for Federal Offices of Inspector General, and visited
sites in Afghanistan from April 19, 2009, to April 25, 2009. We planned and performed
the assessment to obtain sufficient and appropriate evidence to provide a reasonable basis
for our observations, conclusions, and recommendations, based on our assessment
objective.

The scope of our assessment encompasses the electrical safety of Department of Defense-
occupied and -constructed facilities in Afghanistan during the period of January 2008, to
present. Specifically, the assessment team was to determine the effectiveness of
command efforts to ensure the electrical safety of U.S. Military, civilians, and contractor
personnel in Defense-occupied and -constructed facilities in Afghanistan. We conducted
interviews with Commands, agencies, and contractors at the following site visits in
Afghanistan:

       Bagram Air Field:
        Task Force Protecting Our Warfighters and Energy Resources (TF POWER);
        Defense Contract Management Agency (DCMA) – Afghanistan;
        Joint Contracting Command-Afghanistan – Principal Assistant Responsible
          for Contracting;
        Logistics Civil Augmentation Program (LOGCAP) – Afghanistan;
        Defense Logistics Agency;
        Combined Joint Task Force (CJTF)-101;
        Inglett & Stubbs International;
        Fluor Corporation; and
        KBR.

       Kandahar Air Field:
        U.S. Forces-Afghanistan (USFOR-A);
        TF POWER;
        TF Anzio;
        143rd Expeditionary Sustainment Command IG;
        DCMA-Afghanistan;
        North Atlantic Treaty Organization Maintenance and Supply Agency;
        Fluor Corporation; and
        KBR.

       Kabul, Afghanistan:
        USFOR-A;
        USFOR-A, Engineers
        Combined Security Transition Command-Afghanistan;
        U.S. Army Corps of Engineers-Afghanistan Engineering District;
        DCMA-Afghanistan;
        LOGCAP; and
        KBR.




                                            27
We also contacted CENTCOM to discuss the observations and recommendations, as well
as visited the 249th Engineer Battalion at Ft. Belvoir, VA and Forward Operating Bases
Altimur and Sharana (Bagram) and Spin Boldak and Tarin Kowt (Kandahar).

We reviewed documents such as Army regulations and pamphlets on facilities
management and engineering, DoD instructions on a safety and occupational health
program and accident investigation, reporting, and recordkeeping. We also reviewed
policies, task orders, fragmentary orders, and inspection reports on the electrical safety of
DoD Military and civilians, as well as electrical construction and repairs of DoD-
controlled facilities.

Limitations
We limited our review to the current status of efforts made by the Department of Defense
personnel, contractors, and Afghan local nationals to assess and repair electrical
deficiencies in U.S.-controlled facilities. The team’s subject matter expert (senior
electrician from A Co., 249th Engineer Battalion (Prime Power)) performed limited
assessments of electrical components at select facilities in Afghanistan. The subject
matter expert did not conduct full electrical inspections of each facility due to time
constraints in country. Based on these assessments observations were made on the
conditions of electrical components, wiring, panels, bonding, and grounding, in order to
form conclusions on electrical safety.

Methodology
On April 19, 2009, we began a one week assessment of the electrical safety of DoD
facilities occupied or constructed by U.S. personnel and contractors in Afghanistan. The
assessment team performed work at Bagram Airfield (BAF), Forward Operating Base
(FOB) Altimur, FOB Sharana, Kandahar Airfield (KAF), Camp Brown, FOB Tarin
Kowt, FOB Spin Boldak, Camp Phoenix, and Camp Eggers.

We used a subject matter expert to assess the electrical safety and code compliance of
facilities visited at various locations. The conclusions in the report are based on limited
reviews, first-hand observations, and interviews.

We interviewed senior military leaders at U.S. Forces – Afghanistan; Combined Security
Transition Command – Afghanistan; and Combined Joint Task Force-101.

Use of Computer-Processed Data
We did not use any computer-processed data in this assessment.




                                             28
Use of Technical Assistance
The assessment team was augmented by a subject matter expert, a senior electrician from
A Co., 249th Engineer Battalion (Prime Power), to conduct limited reviews of the
electrical safety and code compliance of facilities visited at various locations in
Afghanistan.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.

AHJ                    Authority Having Jurisdiction
ARCENT                 U.S. Army Forces, U.S. Central Command
BAF                    Bagram Air Field
CENTCOM                U.S. Central Command
CJTF                   Combined Joint Task Force
COR                    Contracting Officer’s Representative
DCMA                   Defense Contract Management Agency
FOB                    Forward Operating Base
GFCI                   Ground Fault Current Interrupter
JMD                    Joint Manning Document
KAF                    Kandahar Air Field
LOGCAP                 Logistics Civil Augmentation Program
NATO                   North Atlantic Treaty Organization
NEC                    National Electrical Code
O&M                    Operations & Maintenance
OIG                    Office of the Inspector General
RC                     Regional Command
RSOI                   Reception, Staging, Onward movement, and Integration
SOP                    Standard Operating Procedure
TF POWER               Task Force Protecting Our Warfighters and Energy Resources
TF SAFE                Task Force Safe Actions for Fire and Electricity
USACE-AED              U.S. Army Corp of Engineers-Afghanistan Engineer District
USFOR-A                U.S. Forces-Afghanistan




                                             29
30
Appendix B. Additional Photographs
This appendix contains additional photos taken by the OIG assessment team during the
various Afghanistan FOB and camp tours. The DoDIG assessment team was augmented
by an electrical subject matter expert. The captions represent opinions of the subject
matter expert.

Figure B-1




             Figure B-2




Figures B-1 and B-2 were taken at FOB Altimur and show improperly grounded
generators. Figure B-2 (which is a close-up photo of figure B-1) clearly shows multiple
ground rods tied together and ground rods that are not at least 6 feet apart (as required by
the National Electrical Code).




                                             31
Appendix B. Additional Photographs
(continued)
Figure B-3                                   Figure B-4




                        Figure B-5




Figures B-3, B-4, and B-5, were taken at FOB Altimur. The risk of shock is reduced by
using rubber or PVC pipes to interrupt or in place of the usual copper tubing in shower
units. The rubber (or PVC) piping does not conduct electricity. As such, it interrupts the
electrical circuit. This means if a short were to form in the system, the risk of the water
becoming electrified is greatly reduced.




                                            32
Appendix B. Additional Photographs
(continued)
Figure B-6                                         Figure B-7




Figures B-6, and B-7 are pictures of electrical panels at FOB Altimur. Figure B-6 shows
a clean, grounded, and bonded box. Figure B-6 also shows a cost effective alternative to
rewiring an entire facility when the wires are not color coded to NEC standard.
Specifically, the use of colored tape on the ends of corresponding wires or a permanent
marker such as paint can be used to bring the box in line with the NEC. Additionally,
Figure B-6 shows a wood panel underneath the box that is being used as a temporary fix
to protect exposed wires leading into the box. While still a fire hazard and not code
compliant, the wooden box temporarily keeps personnel from contacting live wires.
Although not pictured, the panel in figure B-6 also had a dead front. Figure B-7 shows a
box that did not have the properly colored coded wires; however this box did have a
listing of the circuits (panel schedule).




                                           33
Appendix B. Additional Photographs
(continued)
Figure B-8                                    Figure B-9




Figures B-8 and B-9 were taken of tents being used to house personnel at Kandahar Air
Field. The Harvest Falcon Package is a prefab tent that holds 36 troops and comes with
power strips and lighting as part of the prefabricated package. The power strip shown in
figure B-9, should have been run out of the way of high traffic areas to avoid trip hazards.
Additionally, the limited number of outlets for 36 personnel might encourage daisy
chaining; adding additional outlets could decrease safety and electrical hazards.

Figure B-10




Figure B-10 was taken at Camp Eggers. Specifically, this was taken at a Morale,
Welfare, and Recreation center on Camp Eggers. The photo is of the electrical panel
which had a dead front and a listing of the circuits (panel schedule).




                                            34
Appendix B. Additional Photographs
(continued)
Figure B-11.




Figure B-11 was taken at Camp Eggers. This is a photo of an overhead raceway for
cables to protect them from getting stepped on or run over.

Figure B-12




Figure B-12 was taken outside of a barracks at Camp Eggers. The photo shows power
strips rated for indoor use being used outside.




                                         35
Appendix B. Additional Photographs
(continued)
Figure B-13                           Figure B-14




Figures B-13 and B-14 were taken of the Welcome Center at Camp Phoenix. Figure B-
14 (which is a close-up photo of figure B-13) depicts a poster containing information on
electrical safety and hazards. Specifically, the poster discuses electrical hazards related
to low-hanging overhead electrical power lines.




                                             36
Appendix C. Legislative Proposal
Concerning Minor Military Construction
Projects




                     37
Appendix C. Legislative Proposal
Concerning Minor Military Construction
Projects (continued)




                     38
Appendix C. Legislative Proposal
Concerning Minor Military Construction
Projects (continued)




                     39
Appendix C. Legislative Proposal
Concerning Minor Military Construction
Projects (continued)
Section by Section Analysis




                          40
Appendix C. Legislative Proposal
Concerning Minor Military Construction
Projects (continued)
Section by Section Analysis




                          41
42
Appendix D. Management Comments to
Preliminary Observations




                  43
Appendix D. Management Comments to
Preliminary Observations (continued)




                   44
Appendix D. Management Comments to
Preliminary Observations (continued)




                   45
Appendix D. Management Comments to
Preliminary Observations (continued)




                   46
Appendix D. Management Comments to
Preliminary Observations (continued)




                   47
Appendix D. Management Comments to
Preliminary Observations (continued)




                   48
Appendix E. Management Comments
U.S. Central Command




                  49
Appendix E. Management Comments
U.S. Central Command (continued)




                  50
Appendix E. Management Comments
U.S. Central Command (continued)




                  51
Appendix E. Management Comments
U.S. Central Command (continued)




                  52
Appendix E. Management Comments
U.S. Central Command (continued)




                  53
Appendix E. Management Comments
Defense Contract Management Agency




                   54
Appendix E. Management Comments
Defense Contract Management Agency
(continued)




                   55
56
Appendix F. Report Distribution
Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense for Policy
Under Secretary of Defense for Personnel and Readiness
Director, Defense Procurement Policy and Acquisition

Department of the Army
Inspector General of the Army
Auditor General, Department of the Army
Commanding General, U.S. Army Corps of Engineers

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Inspector General of the Air Force
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Central Command
     Commander, U.S. Forces-Afghanistan
     Commander, Joint Contracting Command-Iraq/Afghanistan
     Commanding General, Combined Joint Task Force-101
Commander, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Contract Management Agency




                                          57
Congressional Committees and Subcommittees,
Chairman and Ranking Minority Member
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Refor




                                       58
